1a

See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of App. 5th Cir.
Rules 28.7 and 47.5.
The Supreme Court of Texas.
Date Filed: 06/05/2020
Charlie WILSON, as executor of the Estate of Debra
Wilson, substituted in place and stead of Debra Wilson,
deceased, Plaintiff-Appellant
v.
DALLAS COUNTY HOSPITAL DISTRICT, doing
business as Parkland Health & Hospital System; John
Does, Defendants-Appellees
No. 19-1063
Appeal from the Fifth Court of Appeals, Texas, at
Dallas, No. 05-18-01049
ON PETITION FOR REHEARING
THE MOTION[] FOR REHEARING OF THE [] PETITION[] FOR
REVIEW [IS] DENIED
s/
Texas Supreme Court Justices

2a

Court of Appeals,
Fifth Court of Appeals, Texas
at Dallas.
DALLAS COUNTY HOSPITAL DISTRICT, doing
business as Parkland Health & Hospital System;
Defendants-Appellant
v.
Charlie WILSON, as executor of the Estate of Debra
Wilson, substituted in place and stead of Debra Wilson,
deceased, Plaintiff-Appellee.
No. 05-18-01049 Summary Calendar
Filed August 7, 2019
Appeal from the 101st Judicial District Court for
Dallas County, Texas, No. DC-15-09089
Attorneys and Law Firms
Don Bradley Kizzia, Allison K. Van Stean, Kizzia
Johnson, P.L.L.C., Dallas, TX, for Plaintiff-Appellee
Brenda Neel Hight, Brenda Hight Law, P.L.L.C.,
Dallas, TX, Joshua Kornely, John David Luningham,
Esq., Watson, Caraway, Midkiff & Luningham, L.L.P.,
Fort Worth, TX, for Defendant-Appellant
Before Justices MYERS, OSBORNE, and
NOWELL.

3a

Memorandum Opinion
By Justice Osborne
In this interlocutory appeal, Dallas County Hospital
District d/b/a Parkland Health and Hospital System
(the Hospital) appeals the 101st Judicial District
Court’s (state district court) order denying its motion
to dismiss the lawsuit brought pursuant to Chapter 74
of the Texas Civil Practice and Remedies Code by
Charlie Wilson, individually and as representative of
the Estate of Debra Wilson (Wilson). In its sole issue
on appeal, the Hospital argues the state district court
erred when it denied the Hospital’s motion to dismiss
because the 120-day deadline for Wilson to serve an
expert report had expired. We conclude the state
district court erred. The state district court’s order
denying the Hospital’s motion to dismiss is reversed,
an order dismissing Wilson’s claims
with prejudice is rendered, and the case is remanded
to the state district court to award the Hospital relief
under section 74.351(b) of the Texas Civil practice and
Remedies Code.
I.

FACTUAL
AND
BACKGROUND

PROCEDURAL

On November 1, 2007, Debra Wilson had surgery,
specifically a left heart catheterization procedure.
During the procedure, a piece of the plastic catheter
broke and remained in Debra Wilson’s body. Debra
Wilson contended that she was never informed that a
fragment of the catheter remained inside of her. On
August 18, 2014, Debra Wilson went to the emergency
room due to abdominal pain and a CT scan revealed a
foreign body in her thoracic and abdominal aorta. As
a result, Debra Wilson had additional surgery and
treatment for the injuries she sustained from the
catheter fragment.

4a

On August 11, 2015, Debra Wilson filed her original
petition in state district court against the Hospital
and “John Doe, M.D.,” for injuries sustained during a
heart catheterization procedure. She alleged claims
against the Hospital for negligence, lack of informed
consent, fraudulent nondisclosure, negligent condition
or use of tangible personal property, and vicarious
liability for the actions of its medical staff. Also, she
alleged claims against “Dr. John Doe” for breach of the
duty of care, lack of informed consent, and fraudulent
nondisclosure. On September 11, 2015, the Hospital
filed its plea to the jurisdiction, motion for summary
judgment on the basis that Debra Wilson’s claims
were barred by the statute of limitations, and original
answer generally denying the allegations and
asserting sovereign or governmental immunity. This
triggered the 120-day deadline for Debra Wilson to file
her expert report by January 11, 2016.1 See TEX. CIV.
PRAC. & REM. CODE ANN. § 74.351(a).
However, on November 13, 2015, before the expiration
of the 120-day deadline, Debra Wilson filed her first
amended petition adding claims alleging, inter alia,
violations of 42 U.S.C. §§ 1983, 1985, and 1986, and in
the alternative, an unconstitutional taking under the
Fifth Amendment of the Constitution of the United
States of America. As a result, on December 11, 2015,
ninety-one days after the Hospital filed its original
answer, the Hospital filed a notice of removal to
federal district court. However, on September 21,
2016, the United States District Court for the
Northern District of Texas (federal district court)
granted the Hospital’s motion to dismiss Debra
Wilson’s federal claims and remanded the state law
claims to the state district court. Wilson v. Dallas Cty.
Hosp. Dist., No. 3:15-CV-3942-BF, 2016 WL 5122110
(N.D. Tex. Sept. 21, 2016) (mem. op.).

On September 27, 2016, the state district court
received the order of remand from the federal district

5a

court. At some point during the proceedings, Debra
Wilson died and Wilson, her surviving spouse,
succeeded Debra Wilson as plaintiff in this case. On
January 23, 2017, the federal district court issued an
order that denied Wilson’s motion for new trial,
declined to grant his motion to amend his complaint
due to lack of jurisdiction, and denied as moot the
unopposed notice of suggestion of death and for leave
to substitute Wilson as the plaintiff. Wilson v. Dallas
Cty. Hosp. Dist., No. 3:15-CV-3942-BF, 2017 WL
5642583 (N.D. Tex. Jan. 23, 2017) (order). On
February 8, 2017, Wilson filed an amended unopposed
motion to stay the state district court proceedings
during the pendency of his federal appeal. On March
23, 2017, 167 days after it received the order of
remand from the federal district court, the state
district court signed an order staying the state court
proceedings. Then, on May 10, 2017, the state district
court signed an agreed order to reinstate the state
proceedings.2
On October 24, 2017, the United States Court of
Appeals for the Fifth Circuit issued an opinion
affirming the order that dismissed Debra Wilson’s
federal claims and affirming as modified the federal
district court’s order that denied her motion for new
trial. Wilson v. Dallas Cty. Hosp. Dist., 715 F. App’x
319 (5th Cir. 2017) (per curiam). Also in the federal
suit, Wilson filed a petition for certiorari, which was
denied by the U.S. Supreme Court on April 23, 2018.
Wilson v. Dallas Cty. Hosp. Dist., 138 S. Ct. 1597
(2018).

On June 5, 2018, Wilson served his Chapter 74 expert
report on the Hospital and on June 7, 2018, he served

6a

a second expert report. On June 21, 2018, the Hospital
filed a motion to dismiss based on section 74.351(b)
alleging that Wilson failed to serve an expert report
within 120 days of the Hospital’s filing its original
answer and challenging the adequacy of the expert
reports. On August 7, 2018, Wilson responded to the
motion arguing that the removal to federal district
court stayed the state district court proceedings and
tolled the 120-day deadline for serving his expert
report. After a hearing, the state district court denied
the Hospital’s motion to dismiss on August 21, 2018.
This interlocutory appeal followed. See CIV. PRAC. &
REM. § 51.014(a)(9).
II.

MOTION TO DISMISS

In its sole issue on appeal, the Hospital argues the
trial court erred when it denied the Hospital’s motion
to dismiss because the 120-day deadline for Wilson to
tender an expert report had expired. It contends that,
even if the 120-day deadline was tolled while the case
was removed to federal district court, it resumed the
day the state district court received the order of
remand. As a result, the Hospital maintains that the
deadline expired on October 26, 2016. Wilson responds
that the section 74.351 “deadline to file an expert
report was eliminated” because the case was removed
to federal district court. Wilson maintains that the
120-day deadline was tolled while the case remained
under federal jurisdiction, including the time he
exhausted his federal appellate rights, and did not
begin “anew” until May 10, 2018, when the state court
proceedings were reinstated by the state district court,
which extended the deadline until June 21, 2018. As a
result, Wilson contends that his expert reports were
timely.

A.

Standard of Review

7a

An appellate court reviews a trial court’s decision to
grant or deny a motion to dismiss claims for failure to
comply with section 74.351 of the Texas Civil Practice
and Remedies Code for an abuse of discretion. See
Drake v. Walker, 529 S.W.3d 516, 523 (Tex. App.—
Dallas 2017, no pet.). A trial court abuses its
discretion if it acts arbitrarily, unreasonably, or
without reference to any guiding rules or principles.
Jelinek v. Casas, 328 S.W.3d 526, 539 (Tex. 2010). The
trial court has no discretion in determining what the
law is or applying the law to the facts. Sanchez v.
Martin, 378 S.W.3d 581, 587 (Tex. App.—Dallas 2012,
no pet.). A clear failure by the trial court to analyze or
apply the law correctly will constitute an abuse of
discretion. Walker v. Packer, 827 S.W.2d 833, 840
(Tex. 1992) (orig. proceeding).
B.

Applicable Law

For suits involving a “health care liability claim,”
Chapter 74 requires the claimant to serve an adequate
expert report within 120 days after the defendant’s
original answer has been filed. CIV. PRAC. & REM.
§§ 74.351 (setting out expert report service
requirements, deadline, and grounds for extension),
74.001(a)(13) (defining “health care liability claim”);
Scott v. Weems, 575 S.W.3d 357, 362–63 (Tex. 2019).
Dismissal with prejudice is required if an expert
report is not timely served. CIV. PRAC. & REM. §
74.351(b)(2); Scott, 575 S.W.3d at 362–63. Although
this deadline can lead to seemingly harsh results,
strict compliance with this provision is mandatory.
See Zanchi v. Lane, 408 S.W.3d 373, 376 (Tex. 2013);
Ogletree v. Matthews, 262 S.W.3d 316,
320 (Tex. 2007).

The date for serving an expert report may be extended
by written agreement of the affected parties. CIV.
PRAC. & REM. § 74.351(a). However, in order for an

8a

agreed order or written agreement to extend the 120day deadline to file an expert report to be effective, the
order must explicitly indicate the parties’ intention to
extend that deadline and reference that specific
deadline. See Spectrum Healthcare Res., Inc. v.
McDaniel, 306 S.W.3d 249, 254 & n.5 (Tex. 2010); Reid
v. Seton Hosp., No. 03-16-00301-CV, 2016 WL
7046843, at *2 (Tex. App.—Austin Nov. 30, 2016)
(mem. op.).
Once a notice of removal is filed, it “shall effect the
removal and the State court shall proceed no further
unless and until the case is remanded.” 28 U.S.C. §
1446(d); see also In re Sw. Bell Tel. Co., L.P., 235
S.W.3d 619, 624 (Tex. 2007) (“[f]rom the time the case
was removed to federal court until it was remanded to
state court, the state court was prohibited from taking
further action[ ]”). Following removal, the federal
court has exclusive jurisdiction over the action. See In
re Laza, No. 12-17-00280-CV, 2018 WL 271833, at *1
(Tex. App.—Tyler Jan. 3, 2018, orig. proceeding))
(mem. op.) (per curiam); J.P. Morgan Chase Bank,
N.A. v. Del Mar Props., L.P., 443 S.W.3d 455, 460
(Tex. App.–El Paso 2014, no pet.). However, federal
law provides that when a federal district court lacks
subject-matter jurisdiction, a “certified copy of the
order of remand shall be mailed by the clerk to the
clerk of the State court. The State court may
thereupon proceed with such case.” 28 U.S.C. §
1447(c); see Gonzalez v. Guilbot, 315 S.W.3d 533, 536
(Tex. 2010). A remand transfers jurisdiction back to
the state court on the claims that have been
remanded. See Gonzalez, 315 S.W.3d at 537–38;
Paske v. Fitzgerald, 499 S.W.3d 465, 470–71 (Tex.
App.— Houston [1st Dist.] 2016, no pet.).

Upon remand, the state court is to proceed from the
point reached in the state court action prior to
removal, as if no interruption had occurred. See In re
Univ. of the Incarnate Word, 469 S.W.3d 255, 258

9a

(Tex. App.—San Antonio 2015, original proceeding);
Brogdon v. Ruddell, 717 S.W.2d 675, 677 (Tex. App.—
Texarkana 1986, writ ref’d n.r.e.) (per curiam),
disapproved of on other grounds by Quaestor Invs.,
Inc. v. State of Chiapas, 997 S.W.2d 226 (Tex. 1999).
C.

Application of the Law to the Facts

The parties do not dispute that Wilson’s claims are
health care liability claims, the date the Hospital filed
its original answer, when the case was removed to the
federal district court, when the state district court
received the order of remand, or when Wilson served
his expert reports. The only dispute between the
parties in this appeal concerns when the 120-day
deadline expired and the effect of the removal of the
proceedings to federal district court. Assuming,
without deciding, the removal of the case to federal
district court tolled the 120-day deadline as Wilson
contends, we must still address the parties’ different
methods of calculating the expiration of the 120-day
deadline. The parties’ arguments essentially turn on
the effect of the state district court’s orders to stay and
reinstate the state court proceedings during the
federal appeals process.
The Hospital filed its original answer on September
11, 2015. See CIV. PRAC. & REM. § 74.351(a) (120day deadline for serving expert report calculated from
date defendant’s original answer filed). Then, ninetyone days later, on December 11, 2015, the case was
removed to the federal district court vesting that court
with exclusive jurisdiction over the case. See 28 U.S.C.
§ 1446(d); In re Sw. Bell Tel., 235 S.W.3d at 624; In re
Laza, 2018 WL 271833, at *1; J.P. Morgan Chase, 443
S.W.3d at 460.

On September 27, 2016, the state district court
received the order of remand from the federal district
court, transferring jurisdiction back to the state
district court and resuming the state proceedings as if

10a

no interruption had occurred. See Gonzalez, 315
S.W.3d at 537–38; In re Univ. of the Incarnate Word,
469 S.W.3d at 258.
Next, on February 8, 2017, Wilson filed an unopposed
motion to stay the state court proceedings. In that
motion, he requested a stay until the “final nonappealable resolution of the federal court case.”
Wilson did not explicitly request an extension of the
120-day deadline for filing his expert report. On
March 23, 2017, 167 days after it received the order of
remand, the state district court signed an order
granting that motion, which stated:
On this date came on to be heard [Wilson’s]
Unopposed Motion to Stay, and the [state district
court] having considered same, is of the opinion that
said Motion should be granted. Accordingly,
IT IS HEREBY ORDERED that this case is stayed
pending request of either party to re-open or further
order of this Court.
Similarly, the state district court’s order does not
explicitly reference the 120-day deadline. Then, on
May 10, 2017,3 the state district court signed an
agreed order to reinstate the state court proceedings.

That reinstatement order also does not reference the
120-day deadline to file an expert report. Accordingly,
because the orders fail to explicitly indicate the
parties’ intention to extend the 120-day deadline or

11a

otherwise reference that deadline, we conclude the
state district court’s orders staying the state court
proceedings and reinstating them had no effect on the
120- day deadline for filing an expert report. See
Spectrum Healthcare, 306 S.W.3d at 254 & n.5 (Tex.
2010); Reid, 2016 WL 7046843, at *2. As a result,
assuming without deciding the removal of the case to
federal district court tolled the 120-day deadline, the
record shows that ninety-one days had expired before
the state court proceedings were removed to federal
district court, so there were twenty-nine days
remaining when the state district court received the
order of remand from the federal district court on
September 27, 2016. Therefore, the 120-day deadline
for serving an expert report expired on October 26,
2016.4 Wilson did not serve his expert reports until
June 5 and 7, 2018.
Further, even if we accepted Wilson’s argument that
the deadline did not resume until the
U.S. Supreme Court denied his petition for certiorari
on April 23, 2018, exhausting his federal appellate
remedies, the remaining twenty-nine days would have
expired on May 22, 2018, before he served his expert
reports.
Because the expert reports were not timely served, the
state district court was required to dismiss Wilson’s
claims against the Hospital with prejudice. CIV.
PRAC. & REM. § 74.351(b)(2); Scott, 575 S.W.3d at
362. Accordingly, we conclude the state district court
erred when it denied the Hospital’s motion to dismiss.
The Hospital’s sole issue on appeal is decided in its
favor.

III.

CONCLUSION

The state district court erred when it denied the

12a

Hospital’s motion to dismiss.
We reverse the state district court’s order denying the
Hospital’s motion to dismiss. We render an order
dismissing Wilson’s claims against the Hospital with
prejudice. We remand the case to the state district
court to award the Hospital relief under section
74.351(b) of the Texas Civil Practice and Remedies
Code.

s/Leslie Osborne/

13a

Footnotes
1We note that January 9, 2016 was 120 days after
September 11, 2015. However, January 9, 2016, was a
Saturday so the actual deadline was the following
Monday, which was January 11, 2016. See TEX. R.
CIV. P. 4.
2The reinstatement order states that it was signed on
May 10, 2017. However, we note the parties contend
the order was signed a year later on May 10, 2018. The
state district court’s docket sheet also shows that the
order was signed in 2018. We are bound by the record
on appeal and ordinarily, a trial court’s docket sheet
entry forms no part of the record which may be
considered; it is a memorandum made for the trial
court and clerk’s convenience. See, e.g., In re Latimer,
No. 05-14-01099-CV, 2014 WL 4288886, at *1 (Tex.
App.—Dallas Aug. 29, 2014, orig. proceeding) (mem.
op.); Energo Int’l Corp. v. Modern Indus. Heating, Inc.,
722 S.W.2d 149, 151 (Tex. App.—Dallas 1986, no
writ). Nevertheless, even if the order had been signed
in 2018, it would not change the outcome of this
appeal.
3See supra n. 2.
4Wilson argues that the removal of the case to federal
court extinguished any pre-existing Chapter 74
requirements and deadlines because jurisdiction was
no longer vested in any court to which those rules
apply. As a result, he contends that the 120-day
deadline was reset when the case was remanded to the
state district court. Even if we accepted Wilson’s
argument that the deadline began to run anew when
the federal district court remanded the state law
claims to the state district court and the order staying
the state court proceedings stopped the deadline,
which we do not, Wilson’s argument fails because the
state district court did not stay the proceedings until
167 days after it received the order of remand from the
federal district court, which means the deadline ran
before the case was stayed.

14a

Court of Appeals,
Fifth Court of Appeals,
Texas at Dallas.
DALLAS COUNTY HOSPITAL DISTRICT, doing
business as Parkland Health & Hospital System;
Defendants-Appellant
v.
Charlie WILSON, as executor of the Estate of Debra
Wilson, substituted in place and stead of Debra Wilson,
deceased, Plaintiff-Appellee.
No. 05-18-01049
Filed August 7, 2019
Appeal from the 101st Judicial District Court for
Dallas County, Texas, No. DC-15-09089
JUDGMENT
In accordance with this Court’s opinion of this date,
the trial court’s order denying appellant DALLAS
COUNTY HOSPITAL DISTRICT D/B/A PARKLAND
HEALTH AND HOSPITAL’s Chapter 74 motion to
dismiss is REVERSED and an order is RENDERED
that:
dismisses with prejudice appellee CHARLIE
WILSON,
INDIVIDUALLY
AND
AS
REPRESENTATIVE OF THE ESTATE OF DEBRA
WILSON’s claims against appellant
DALLAS
COUNTY
HOSPITAL DISTRICT D/B/A
PARKLAND HEALTH AND HOSPITAL.

15a

The case is REMANDED to the trial court for further
proceedings consistent with this Court’s opinion.
It is ORDERED that appellant DALLAS COUNTY
HOSPITAL DISTRICT D/B/A PARKLAND HEALTH
AND HOSPITAL recover its costs of this appeal from
appellee CHARLIE WILSON, INDIVIDUALLY AND
AS REPRESENTATIVE OF THE ESTATE OF
DEBRA WILSON.
Judgment entered this 7th day of August, 2019.

16a

101st Judicial District Court,
Dallas County, Texas.
8/14/2018
No. DC-15-09089
CHARLIE WILSON, individually,
and as Representative of the
estate of DEBRA WILSON,
Plaintiff,
v.
DALLAS COUNTY HOSPITAL
DISTRICT, et al.,
Defendants.
ORDER
On August 14, 2018, came on to be heard Defendant's
Objections to Plaintiff's Chapter 74 Expert Reports
and Motion to Dismiss, and the Court having
considered same and the arguments of counsel is of
the opinion that the Objections should be overruled
and the Motion denied. Accordingly,
IT IS HEREBY ORDERED that Defendant's objections
to Plaintiff's Chapter 74 Expert Reports are overruled,
and Defendant's Motion to Dismiss is in all things
denied.
s/Staci Williams/

17a

United States District Court
for the Northern District of
Texas, Dallas Division.
12/23/15
No. 3:15-CV-03942-G
DEBRA WILSON,
Plaintiff,
v.
DALLAS COUNTY HOSPITAL
DISTRICT, et al.,
Defendants.
ORDER
Before the court is the parties’ agreed motion for
extension of deadlines (docket entry 6). The parties
ask the court to enter an order that extends the
deadline for the plaintiff, Debra Wilson, to respond to
the motion to dismiss of the defendant, Dallas County
Hospital District, to February 8, 2016. Agreed Motion
for Extension of Deadlines (“Motion”) at 1.
Additionally, the parties ask the court to extend the
120-day period, provided under TEX. CIV. PRAC. &
REM. CODE § 74.351, to file an expert report until
May 9, 2016. Id. Next, the parties state that “The
[p]arties expressly reserve any right to address
whether [p]laintiff Wilson is under any obligation
during the pendency of the federal cause of action to
provide an expert report pursuant to TEX. CIV.
PRAC. & REM. CODE § 74.351.” Id. The parties met,
conferred and agreed to the relief requested in the
motion. Id.

18a

The parties’ motion requesting an extension of time
for the plaintiff to file her response to the defendant’s
motion to dismiss until February 8, 2016 is
GRANTED. Defendant shall electronically file its
reply no later than February 22, 2016.
The parties’ motion requesting an extension of time to
file an expert report beyond the 120-day period
provided under TEX. CIV. PRAC. & REM. CODE §
74.351 to May 9, 2016 is DENIED. The TEX. CIV.
PRAC. & REM. CODE § 74.351 does not apply to the
administration of this lawsuit in federal court. See
Nelson v. Myrick, No. 3:04-CV-0828-G, 2005 WL
723459 at *4 (N.D. Tex. Mar. 29, 2005) (Fish, Chief J.)
(holding that TEX. CIV. PRAC. & REM. CODE §
74.351 does not apply to the administration of a Texas
malpractice suit in federal court on the basis of
diversity because “there is a direct collision between §
74.351 and FED. R. CIV. P. 26 and FED. R. CIV. P.
37”) (internal quotations omitted); Poindexter v.
Bonsukan, 145 F. Supp. 2d 800, 803 (E.D. Tex. 2001)
(quoting 8 CHARLES ALAN WRIGHT & ARTHUR R.
MILLER, FEDERAL PRACTICE AND PROCEDURE
§ 2005 (Supp. 2000)). The Federal Rules of Civil
Procedure, and in particular FED. R. CIV. P. 26 and
FED. R. CIV. P. 37, govern the court’s administration
of this lawsuit. Cates v. Sears, Roebuck & Co., 928
F.2d 679, 687 (5th Cir. 1991) (Federal courts are
bound to apply state substantive law “when
adjudicating [state law] claims, but in doing so [they]
apply federal procedural law to the proceedings.”);
Erie Railroad Company v. Tompkins, 304 U.S. 64, 9192 (1938). The parties do not have any right to apply
Texas civil procedure in federal court and cannot
expressly reserve a right to address the applicability
of TEX. CIV. PRAC. & REM. CODE § 74.351.
SO ORDERED.
s/Joe Fish/

19a

United States District Court,
Northern District of Texas,
Dallas Division.
Debra Wilson, Plaintiff,
v.
Dallas County Hospital District d/b/a Parkland Health
and Hospital System, and John Does, Defendants.
No. 3:15-CV-3942-BF
Signed 09/21/2016
Attorneys and Law Firms
D. Bradley Kizzia, Anthony Thomas Ricciardelli, Kizzia
Johnson PLLC, Dallas, TX, for Plaintiff.
J. David Luningham, Joshua David Kornely, Watson
Caraway Midkiff & Luningham LLP, Fort Worth, TX,
Brenda Neel Hight, Brenda Hight Law, PLLC, Dallas,
TX, for Defendants.
Opinion
MEMORANDUM OPINION & ORDER
PAUL
D.
STICKNEY,
MAGISTRATE JUDGE

UNITED

STATES

Before the Court is Dallas County Hospital District
d/b/a Parkland Health and Hospital System's
(“Parkland”) Motion to Dismiss Plaintiff's Complaint
Pursuant to Rule 12(b)(6) for Failure to State a Claim
[ECF No. 13] (“Motion to Dismiss”). For the following
reasons, Parkland's Motion to Dismiss [ECF No. 13] is
GRANTED in part.

20a

BACKGROUND
This case arises out of a left heart catheterization
procedure performed at Parkland on November 1, 2007.
2d Am. Compl. 4, ECF No. 11. Debra Wilson (“Wilson”)
contends that during the procedure, a 20 centimeter
piece of plastic catheter broke due to the defendants'
negligence and remained inside her body. Id., ECF No.
11. Wilson alleges that the defendants knew or should
have known that the catheter broke and remained
inside her body and failed to warn her that the surgery
posed a risk that broken catheter pieces could remain in
her body after her surgery. Id. at 5, ECF No. 11.
Wilson contends that the defendants' failure to warn
her of the risks associated with the surgery and their
failure to inform her that she had broken catheter
pieces in her body precluded her from making informed
medical decisions and seeking further medical care. Id.,
ECF No. 11.
Wilson states that she went to the emergency room at
Parkland on August 18, 2014 because she experienced
abdominal pains. Id., ECF No. 11. Wilson states that,
after several tests and a CT scan were conducted, a
foreign body was found in her thoracic and abdominal
aorta. Id., ECF No. 11. Furthermore, the CT
angiography showed what the examining physician
described as an “interesting calcific linear density
beginning in the descending thoracic aorta extending to
the level of the distal abdominal aorta which has been
described as a calcified catheter fragment.” Id., ECF
No. 11. Plaintiff notified Parkland of this information in
September of 2014. Id., ECF No. 11. Wilson contends
that she suffered multiple injuries to her abdomen and
related areas which caused permanent bodily
impairment and disfigurement. Id. at 6, ECF No. 11.
Wilson states that she underwent numerous surgeries

21a

and treatments for these injuries, has experienced
severe physical pain and mental anguish, and has
incurred substantial medical expenses. Id., ECF No. 11.
On August 11, 2015, Wilson filed her Original Petition
in the 101st Judicial District Court in Dallas, Texas.
Original Pet. 1, ECF No. 1 at 7. Wilson filed her
Amended Petition on November 13, 2015. Am. Pet. 1,
ECF No. 1 at 32. On December 11, 2015, Parkland
removed the case to the Northern District of Texas.
Notice of Removal 1, ECF No. 1 at 1. Wilson then filed
her “Federal Complaint” on January 8, 2016. 2d Am.
Compl. 1, ECF No. 11. In her second amended
complaint, Wilson brings the following state claims
against Parkland – Count 1: Negligence; Count 2: Lack
of Informed Consent; Count 3: Fraudulent
Concealment and/or Non-disclosure; Count 4:
Negligent Condition or Use of Tangible Property; and
Count 5: Alternative Claim for Unconstitutional
Taking Pursuant to Article I, Section 17 of the Texas
Constitution. Id. at 6-11, ECF No. 11.
Wilson also alleges the following state claims against
the John Doe defendants, whom Wilson describes as the
unknown doctors who performed her examinations,
tests, treatments, and 2007 surgery – Count 6: Lack of
Informed Consent; and Count 7: Fraudulent
Concealment and Non-disclosure. Id. at 13-14, ECF No.
11. Wilson contends that, to the extent the John Doe
defendants claim to be employees of a governmental
entity, sovereign immunity does not apply to their acts
of intentional non-disclosure and fraudulent
concealment. Id. at 14, ECF No. 11. In addition, Wilson
contends that res ipsa loquitur applies because: (a) the
incident is such that it would not ordinarily occur in the
absence of negligence; and (b) the instrumentality that

22a

caused the injury was under the management and
control of the defendants. Id. at 15, ECF No. 11. While
Wilson stated in her January 8, 2016 second amended
complaint that the “Defendant Doctors ‘John Does' who
operated on, treated, and withheld information from
Plaintiff Wilson at Parkland are not identified at this
time, but will be pending further discovery[,]” the case
docket does not reflect that those defendants were
identified and served at the time of the June 14, 2016
stay of discovery or anytime thereafter. Id. at 2, ECF
No. 11; Order, ECF No. 28.
Wilson further alleges the following federal claims
against Parkland – Count 8: Violation of Federal
Constitutional Rights through Denial of Medical Care
(42 U.S.C. §§ 1983, 1985, and 1986); Count 9: Violation
of Federal Constitutional Right to Bodily Integrity (42
U.S.C. §§ 1983, 1985, and 1986); Count 10: Violation of
Federal Constitutional Right to Bodily Privacy/Right
Against Bodily Intrusion (42 U.S.C. §§ 1983, 1985, and
1986); Count 11: Violation of Federal Constitutional
Rights Through Cover-Up of Violation of Federal
Constitutional Rights (42 U.S.C. §§ 1983, 1985, and
1986); Count 12: Conspiracy to Violate Federal
Constitutional Rights Through Cover-Up of Violation
of Federal Constitutional Rights (42 U.S.C. §§ 1983,
1985, and 1986); Count 13: Conspiracy to Violate
Federal Constitutional Rights Through Cover-Up of
Violation of Federal Right (42 U.S.C. §§ 1983, 1985, and
1986); and Count 14: Alternative Claim for
Unconstitutional Taking Pursuant to the Fifth
Amendment to the United States Constitution. 2d Am.
Compl. 18-29, ECF No. 11. In addition, Wilson “seeks a
declaratory judgment that Section 101.101 of the Texas
Civil Practice [and Remedies] Code is unconstitutional

23a

and a violation of her 14th Amendment rights under the
United States of America Constitution[,]” if the Court
finds that “the foregoing causes of action do not
otherwise provide a compensable remedy to Plaintiff.”
Id. at 29, ECF No. 11.
ANALYSIS
Under Federal Rule of Civil Procedure (“Rule”) 8(a)(2),
a pleading must contain “a short and plain statement of
the claim showing that the pleader is entitled to relief.”
Although Rule 8(a)(2) does not require detailed factual
allegations, mere labels and conclusions do not suffice.
See Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)).
“[A] formulaic recitation of the elements of a cause of
action will not do.” Id. Furthermore, under Rule
12(b)(6), a court examines pleadings by accepting all
well-pleaded facts as true and viewing them in a light
most favorable to the plaintiff. In re Katrina Canal
Breaches Litig., 495 F.3d 191, 205 (5th Cir. 2007)
(citingMartin K. Eby Constr. Co. v. Dall. Area Rapid
Transit, 369 F.3d 464, 467 (5th Cir. 2004)). A court may
dismiss a complaint under Rule 12(b)(6) if the
complaint, when viewed in a light most favorable to the
plaintiff, fails to state a valid claim for relief. See
Collins v. Morgan Stanley Dean Witter, 224 F.3d 496,
498 (5th Cir. 2000). In considering a Rule 12(b)(6)
motion to dismiss, the court takes as true all facts
pleaded in the complaint, even if they are doubtful in
fact. See id. A court, at this juncture, does not evaluate
a plaintiff's likelihood of success, but only determines
whether a plaintiff has stated a legally cognizable claim.
See United States ex rel. Riley v. St. Luke's Episcopal
Hosp., 355 F.3d 370, 376 (5th Cir. 2004).

24a

As Parkland points out, Wilson must allege that she
was deprived of a constitutional right pursuant to an
official custom or policy in order to state a claim under
42 U.S.C. § 1983 (“Section 1983”) against Parkland
because it is a governmental entity. Id. at 4, ECF No.
13. Wilson's “description of a policy or custom and its
relationship to the underlying constitutional violation...
cannot be conclusory; it must contain specific facts.”
Spiller v. City of Tex. City Police Dep't, 130 F.3d 162,
167 (5th Cir. 1997). Furthermore, “[i]solated violations
are not the persistent, often repeated, constant
violations, that constitute custom and policy as required
for municipal section 1983 liability.” Bennett v. City of
Slidell, 728 F.2d 762, 768 n.3 (5th Cir. 1984); see also
Hatcher v. City of Grand Prairie, No. 3:14-CV-432-M,
2015 WL 181763, at *7-8 (N.D. Tex. Jan. 14, 2015)
(“Plaintiffs fail to allege any factual basis to support a
particular policy or custom-formal or informal-that led
to the constitutional violations alleged in their
complaint....They do not allege facts to establish any
other instances where an individual has been shot or
tasered for noncompliance with officer commands alone
or any other information to suggest that any such
conduct constitutes an unwritten custom of Grand
Prairie....Plaintiffs' allegations are about one incident
involving Officer Bement, which they allege resulted in
a constitutional deprivation, from which Plaintiffs ask
the Court to infer that Grand Prairie had a de facto
policy or customary practice of allowing excessive force
by its peace officers or that Grand Prairie engaged in
ratification by inaction.”). In addition, Wilson must
“identify the policy, connect the policy to the
governmental entity itself, and show that h[er] injury
was incurred because of the application of that specific
provision.” Hatcher, 2015 WL 181763, at *7. As

25a

Parkland argues, Wilson's second amended complaint
wholly fails to allege the necessary facts to state a
Section 1983 claim. See Mot. to Dismiss 6-7, ECF No.
13.
As Parkland further argues, Wilson's conspiracy
related claims under Sections 1985 and 1986 also fail.
See id. at 15-16, ECF No. 13. In order to “state a claim
for relief under Section 1985(3), a plaintiff must allege
(1) a conspiracy involving two or more persons; (2) for
the purpose of depriving, directly or indirectly, a
person or class of persons of the equal protection of the
laws; and (3) an act in furtherance of the conspiracy; (4)
which causes injury to a person or property, or
deprivation of any right or privilege of a citizen of the
United States.” Body by Cook, Inc. v. State Farm Mut.
Auto. Ins., Civ. Action No. 15-2177, 2016 WL 4479507,
at *6 (E.D. La. Aug. 25, 2016) (citing Hilliard v.
Ferguson, 30 F.3d 649, 652-53 (5th Cir. 1994)). “In
addition, the conspiracy must be motivated by ‘some
racial, or perhaps otherwise class-based, invidiously
discriminatory animus behind the conspirators' action.’
” Id. (quoting Bray v. Alexandria Women's Health
Clinic, 506 U.S. 263, 267-68 (1993)). Wilson “must allege
sufficient facts showing that the defendants conspired
to discriminate against [her] on the basis of” race or
other class-based animus. Id. (citing Newsome v.
E.E.O.C., 301 F.3d 227, 232 (5th Cir. 2002)).
It appears from Wilson's second amended complaint
that she believes the defendants discriminated against
her because she was “economically disadvantaged and
not privately insured.” See 2d Am. Compl. 26, ECF No.
11. However, as Parkland argues, “[a]ssuming that
Wilson intends to invoke her economic and insurance

26a

status as a class, precedent of the United States
Supreme Court unequivocally establishes that a
patient's inability to pay for medical care does not
render the patient within a protected class for purposes
of constitutional protection.” Mot. to Dismiss 16, ECF
No. 13; Harris v. McRae, 448 U.S. 297, 323 (1980) (“An
indigent woman desiring an abortion does not come
within the limited category of disadvantaged classes so
recognized by our cases. Nor does the fact that the
impact of the regulation falls upon those who cannot
pay lead to a different conclusion. In a sense, every
denial of welfare to an indigent creates a wealth
classification as compared to nonindigents who are able
to pay for the desired goods or services. But this Court
has never held that financial need alone identifies a
suspect class for purposes of equal protection analysis.”
(internal quotation marks and citations omitted)). In
sum, as argued by Parkland, other than conclusory
allegations, Wilson fails to state a conspiracy claim
under Section 1985. Mot. to Dismiss 16, ECF No. 13. As
Parkland further argues, Wilson's Section 1986 claim
also fails, because Section 1986 is derivative of Section
1985. See id. at 16-17, ECF No. 13; 42 U.S.C. § 1986
(“Every person who, having knowledge that any of the
wrongs conspired to be done, and mentioned in section
1985 of this title, are about to be committed, and having
power to prevent or aid in preventing the commission
of the same, neglects or refuses so to do, if such
wrongful act be committed, shall be liable to the party
injured[.]”).
As argued by Parkland, Wilson's alternative claim for
unconstitutional taking under the Fifth Amendment of
the United States Constitution also fails. Mot. to
Dismiss 17-19, ECF No. 13; 2d Am. Compl. 28-29, ECF

27a

No. 11. “The Fifth Amendment applies only to
violations of constitutional rights by the United States
or a federal actor.” Jones v. City of Jackson, 203 F.3d
875, 880 (5th Cir. 2000). Wilson does not allege that
Parkland acted under any federal authority. 2d Am.
Compl. 28-29, ECF No. 11. Furthermore, because all of
Wilson's underlying federal claims fail, her request for
declaratory relief in connection with her federal claims
also lacks merit. Metropcs Wireless, Inc. v. Virgin
Mobile USA, L.P., No. 3:03-CV-1658-D, 2009 WL
3075205, at *19 (N.D. Tex. Sept. 25, 2009) (“The federal
Declaratory Judgment Act [ ], 28 U.S.C. §§ 2201, 2202,
does not create a substantive cause of action. A
declaratory judgment action is merely a vehicle that
allows a party to obtain an ‘early adjudication of an
actual controversy’ arising under other substantive
law.” (citations and internal quotation marks omitted)).
To the extent Wilson seeks declaratory relief in
connection with her state claims, she may seek such
relief in state court as discussed below.
Having concluded that all of Wilson's federal claims
against Parkland should be dismissed, the Court now
considers Wilson's state law claims over which “[t]he
Court has supplemental jurisdiction. through 28 U.S.C.
§ 1367(a).” Exigis, LLC v. City of Dall., No. 3:15-CV1372-N, 2016 WL 3360570, at *4 (N.D. Tex. Mar. 22,
2016). “However, under 28 U.S.C. § 1367(c)(3), the
Court may decline to exercise supplemental jurisdiction
if it has dismissed all claims over which it has original
jurisdiction.” Id. (citing Rhyne v. Henderson Cty., 973
F.2d 386, 395 (5th Cir. 1992)). “In deciding whether to
decline jurisdiction over pendent state law claims,
courts should balance considerations of ‘judicial
economy, convenience, fairness and comity.’ ” Id.

28a

(quoting Batiste v. Island Records, Inc., 179 F.3d 217,
227 (5th Cir. 1999)). Having considered these factors,
the Court declines to exercise supplemental jurisdiction
over Wilson's remaining state law claims.
CONCLUSION
For the foregoing reasons, Parkland's Motion to
Dismiss [ECF No. 13] is GRANTED in part. The
Court dismisses Wilson's federal claims against
Parkland and remands the remaining state law claims
to the 101st Judicial District Court of Dallas County,
Texas.
SO ORDERED, this 21st day of September, 2016.

29a

United States District Court,
Northern District of Texas,
Dallas Division.
Debra Wilson, Plaintiff,
v.
Dallas County Hospital District d/b/a Parkland Health
and Hospital System, and John Does, Defendants.
No. 3:15-CV-03942-D
Filed 02/02/2017
Plaintiff’s Notice of Appeal
Notice is hereby given that Plaintiff Charlie Wilson, individually,
and as administrator of the estate of Debra Wilson, plaintiff in the
above-named case, hereby appeals to the United States Court of
Appeals for the Fifth Circuit from the Court’s final judgment
entered in this action on the 21st day of September, 2016 [Doc.
33]. The orders appealed from include, but are not necessarily
limited to, following:
1.

Order Granting in Part Dallas County Hospital District
d/b/a Parkland Health and Hospital System’s (“Parkland’)
Motion to Dismiss Pursuant to Rule 12(b)(6) for Failure to
State a Claim, dated September 21, 2016 [Doc. 32];

2.

Judgment dismissing all of Plaintiff’s federal claims
against Defendant Parkland, dated September 21, 2016
[Doc. 33]; and

3.

Order Denying Plaintiff’s Motion for New Trial or
Alternatively, to Alter or Amend Judgment and Plaintiff’s
Unopposed Notice of Suggestion of Death and Unopposed
Motion for Leave to Substitute Plaintiff, dated January 23,
2017 [Doc. 39].
s/D. Bradley Kizzia/

